APPLICATION AND
SOLICITATION
DISCLOSURE
PLATINUM ELITE VISA/PLATINUM ELITE REWARDS
VISA/SECURED CLASSIC VISA
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Platinum Elite Visa

8.15% , 9.15%, 11.15%, 13.15% or 15.15%,
when you open your account, based on your creditworthiness. This APR will
vary with the market based on the Prime Rate.
Platinum Elite Rewards Visa

10.15% , 11.15%, 13.15%, 15.15% or 17.15%,
when you open your account, based on your creditworthiness. This APR will
vary with the market based on the Prime Rate.
Secured Classic Visa

9.75%
This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

Platinum Elite Visa
11.15% , 12.15%, 14.15%, 16.15% or 18.15%, when you open your
account, based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Platinum Elite Rewards Visa
13.15% , 14.15%, 16.15%, 18.15% or 20.15%, when you open your
account, based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Secured Classic Visa
12.75%

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.
Platinum Elite Visa
11.15% , 12.15%, 14.15%, 16.15% or 18.15%, when you open your
account, based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Platinum Elite Rewards Visa
13.15% , 14.15%, 16.15%, 18.15% or 20.15%, when you open your
account, based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Secured Classic Visa
12.75%
This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02101376-MXC10-P-1-031519 (MXC101-E)

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
1.00% of each transaction in U.S. dollars
Up to $35.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: May 1, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Platinum Elite Visa, Platinum Elite Rewards Visa and Secured Classic Visa are
secured credit cards. Credit extended under this credit card account is secured by various personal property and
money including, but not limited to: (a) any goods you purchase with this account, (b) any shares you
specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any
individual or joint account with the Credit Union excluding shares in an Individual Retirement Account or in any
other account that would lose special tax treatment under state or federal law, and (d) collateral securing other
loans you have with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and
agree that during any periods when you are a covered borrower under the Military Lending Act your credit card
will be secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in
any individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i)
you establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment. In the event you fail to make a payment on time in any of the six billing cycles following the initial violation, you
will be charged $35.00 or the amount of the required minimum payment, whichever is less.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Sales Draft Copy Fee:
$5.00 per copy.
Card Personalization Fee:
$5.00 per card.
Rush Fee:
$30.00 per card.
Statement Copy Fee:
$2.00 per statement.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02101376-MXC10-P-1-031519 (MXC101-E)

